<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2001
--------------------------------------------------------------------------
--------------------------------------------------------------------------

                               HEARINGS

                               BEFORE A

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                 ______



SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                              APPROPRIATIONS

                      FRANK R. WOLF, Virginia, Chairman

TOM DeLAY, Texas                   MARTIN OLAV SABO, Minnesota
RALPH REGULA, Ohio                 JOHN W. OLVER, Massachusetts
HAROLD ROGERS, Kentucky            ED PASTOR, Arizona
RON PACKARD, California            CAROLYN C. KILPATRICK, Michigan
SONNY CALLAHAN, Alabama            JOSE E. SERRANO, New York
TODD TIAHRT, Kansas                MICHAEL P. FORBES, New York
ROBERT B. ADERHOLT, Alabama
KAY GRANGER, Texas


NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full Committee, 
and Mr. Obey, as Ranking Minority Member of the Full Committee, are 
authorized to sit as Members of all Subcommittees.

   John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and 
                Linda J. Muir, Subcommittee Staff

                                 ______

                                 PART 1

                       2001 BUDGET JUSTIFICATIONS

DEPARTMENT OF TRANSPORTATION:                                      Page

 Budget in Brief                                                       1
 Bureau of Transportation Statistics                                  41
 Coast Guard                                                         119
 Federal Highway Administration                                      523
 Federal Motor Carrier Safety Administration                         977
 National Highway Traffic Safety Administration                     1621
 Office of Inspector General                                        1027
 Research and Special Programs Administration                       1317
 Saint Lawrence Seaway Development Corporation                      1217
 Surface Transportation Board                                       1583
RELATED AGENCIES:
 Architectural and Transportation Barriers Compliance Board         1271

                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE

62-793                        WASHINGTON : 2000



                          COMMITTEE ON APPROPRIATIONS

                      C. W. BILL YOUNG, Florida, Chairman

RALPH REGULA, Ohio                       DAVID R. OBEY, Wisconsin
JERRY LEWIS, California                  JOHN P. MURTHA, Pennsylvania
JOHN EDWARD PORTER, Illinois             NORMAN D. DICKS, Washington
HAROLD ROGERS, Kentucky                  MARTIN OLAV SABO, Minnesota
JOE SKEEN, New Mexico                    JULIAN C. DIXON, California
FRANK R. WOLF, Virginia                  STENY H. HOYER, Maryland
TOM DeLAY, Texas                         ALAN B. MOLLOHAN, West Virginia
JIM KOLBE, Arizona                       MARCY KAPTUR, Ohio
RON PACKARD, California                  NANCY PELOSI, California
SONNY CALLAHAN, Alabama                  PETER J. VISCLOSKY, Indiana
JAMES T. WALSH, New York                 NITA M. LOWEY, New York
CHARLES H. TAYLOR, North Carolina        JOSE E. SERRANO, New York
DAVID L. HOBSON, Ohio                    ROSA L. DeLAURO, Connecticut
ERNEST J. ISTOOK, Jr., Oklahoma          JAMES P. MORAN, Virginia
HENRY BONILLA, Texas                     JOHN W. OLVER, Massachusetts
JOE KNOLLENBERG, Michigan                ED PASTOR, Arizona
DAN MILLER, Florida                      CARRIE P. MEEK, Florida
JAY DICKEY, Arkansas                     DAVID E. PRICE, North Carolina
JACK KINGSTON, Georgia                   MICHAEL P. FORBES, New York
RODNEY P. FRELINGHUYSEN, New Jersey      CHET EDWARDS, Texas
ROGER F. WICKER, Mississippi             ROBERT E. ``BUD'' CRAMER, Jr.,                    
GEORGE R. NETHERCUTT, Jr., Washington       Alabama
RANDY ``DUKE'' CUNNINGHAM, California    MAURICE D. HINCHEY, New York
TODD TIAHRT, Kansas                      LUCILLE ROYBAL-ALLARD, California
ZACH WAMP, Tennessee                     SAM FARR, California
TOM LATHAM, Iowa                         JESSE L. JACKSON, Jr., Illinois
ANNE M. NORTHUP, Kentucky                CAROLYN C. KILPATRICK, Michigan
ROBERT B. ADERHOLT, Alabama              ALLEN BOYD, Florida
JO ANN EMERSON, Missouri
JOHN E. SUNUNU, New Hampshire
KAY GRANGER, Texas
JOHN E. PETERSON, Pennsylvania
VIRGIL H. GOODE, Jr., Virginia

                   James W. Dyer, Clerk and Staff Director

                                    (ii)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
